JUDD E. STONE II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

September 22, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

No. 21-5592 (Capital Case), John H. Ramirez v. Bryan Collier,
Executive Director, Texas Department of Criminal Justice, et al.

Dear Mr. Harris:
Respondents seek to lodge with the Court certain non-record materials in
connection with the above-captioned matter pursuant to Supreme Court Rule 32.3.
After setting this case for argument, the Court directed the parties to submit
briefs discussing four specific issues. Due to the shifting nature of Petitioner’s claim
(as well as the extraordinarily accelerated timeline), this case comes to the Court on
an underdeveloped record that lacks the evidence necessary to completely address
the Court’s questions. Accordingly, Respondents seek to lodge with the Court the
following documents:
First, to answer the Court’s question regarding exhaustion, we propose to
submit grievances filed by Mr. Ramirez and the declaration of the manager of the
Texas Department of Criminal Justice’s (TDCJ) Resolution Support/Offender
Grievance Department, which discusses the inmate grievance process.

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Page 2
Second, to answer the Court’s question respecting Petitioner’s satisfaction of
his burden under the Religious Land Use and Institutionalized Persons Act
(RLUIPA), we propose to submit the declaration of a TDCJ employee that speaks to
Petitioner’s sincerity and the burden on his religious exercise. Because the names of
persons involved in executions are kept confidential, we propose to submit a
redacted version for the public record and the unredacted declaration under seal.
Finally, to answer the Court’s question regarding Respondents’ burden under
RLUIPA, we propose to submit the declaration of the Director of TDCJ’s Criminal
Institutions Division. This declaration addresses the State’s compelling interests in,
inter alia, security during an execution and respecting the dignity of the condemned
inmate, and explains that the existing policies are the least restrictive means of
advancing the State’s interests.
The Court has previously accepted non-record materials from parties in
extraordinary circumstances. See, e.g., Ross v. Blake, 136 S. Ct. 1850, 1860-62 (2016);
Ala. Legis. Black Caucus v. Alabama, 575 U.S. 254, 271 (2015); Parents Involved in
Cmty. Schs. v. Seattle Sch. Dist. No. 1, 551 U.S. 701, 718 (2007). Moreover, there is
precedent for the Court’s acceptance of lodged affidavits and declarations. See, e.g.,
Azar v. Garza, 138 S. Ct. 2616 (2018) (order granting petitioner’s motion to lodge
non-record material); Brief in Opposition at 24, Azar v. Garza, 138 S. Ct. 1790 (2017)
(No. 17-654), 2017 WL 6034215 (describing lodged non-record material to include a
declaration and emails); Orders, Kingdomware Techs., Inc. v. United States, No. 14916 (U.S. March 25, 2016) (approving petitioner’s and respondent’s proposals to
lodge declarations); Order, Ala. Democratic Conf. v. Alabama, No. 13-1138 (U.S. Dec.
31, 2014) (approving appellants’ proposal to lodge an affidavit); Order, Parents
Involved in Cmty. Schs. v. Seattle Sch. Dist. No. 1, No. 05-908 (U.S. Nov. 27, 2006)
(approving petitioner’s proposal to lodge an affidavit). There also is precedent for
the lodging of non-record material under seal. See Azar, 138 S. Ct. at 2616 (order
granting a motion to lodge non-record materials under seal with redacted copies for
the public record). This Rule 32.3 request is consistent with lodgings previously
approved by the Court and is especially appropriate in the light of the limited record
available for the parties to draw upon in answering the four questions identified by
the Court.

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Page 3
As required by Rule 32.3, Respondents will not submit these documents to the
Court unless and until you request them. We have provided Petitioner’s counsel
with a copy of this letter and these documents with the exception of the declaration
proposed for lodging under seal. Petitioner’s counsel has received the redacted
version of that document.
Respectfully submitted.
/s/ Judd E. Stone II
Judd E. Stone II
Solicitor General
Counsel of Record
cc: Seth Kretzer (via e-mail)

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

